           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
       eAUTHENTICATION PROCESS


      October 2011   A-14-11-11115




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      October 14, 2011                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s eAuthentication Process (A-14-11-11115)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration’s (SSA)
           current and proposed electronic authentication (eAuthentication) process 1 creates a
           strong, secure authentication protocol that meets Federal guidelines and standards.
           For this review, we focused on citizen-to-government Internet applications.2, 3

           BACKGROUND
           SSA is expanding its Internet services to guide the public toward performing more
           business electronically. Some Internet applications involve the exchange of personally
           identifiable information (PII) 4 between SSA and the public. According to SSA’s Intranet
           site, these services are more useful and attractive but carry a greater risk of
           inappropriate disclosure.



           1
             eAuthentication is the process of establishing confidence in user identities electronically presented to an
           information system.
           2
            The Agency defines a citizen-to-government Internet application as an application that transacts
           business between a human and a machine rather than from one machine to another machine.
           3
             The Office of Management and Budget (OMB) uses the phrase “user-to-agency” for “citizen-to-
           government” information system applications. OMB, M-04-04, E-Authentication Guidance for Federal
           Agencies, Attachment A, Section 2.3, Step 4 (December 16, 2003).
           4
             OMB defines the term PII as “. . . any information about an individual maintained by an agency,
           including, but not limited to, education, financial transactions, medical history, and criminal or employment
           history and information which can be used to distinguish or trace an individual's identity, such as their
           name, social security number, date and place of birth, mother’s maiden name, biometric records, etc.,
           including any other personal information that is linked or linkable to an individual.” OMB, M-06-19,
           Reporting Incidents Involving Personally Identifiable Information and Incorporating the Cost for Security in
           Agency Information Technology Investments, page 1, footnote 1 (July 12, 2006).
Page 2 - The Commissioner


The Agency’s Internet site supports several types of online Web services: government-
to-government, business-to-government, and citizen-to-government applications. We
determined that SSA had 22 citizen-to-government Internet applications in place at the
time of our review (see Appendix B).

In December 2003, OMB issued guidance to ensure the protection of security and
privacy for online Government services. 5 The guidance requires that agencies review
new and existing electronic transactions to ensure the eAuthentication processes
implemented provided the appropriate level of assurance. 6 Further, the guidance
established and described four levels of identity authentication assurance for electronic
Government transactions. 7
      •   Level 1: Little or no confidence in the asserted identity’s validity.
      •   Level 2: Some confidence in the asserted identity’s validity.
      •   Level 3: High confidence in the asserted identity’s validity.
      •   Level 4: Very high confidence in the asserted identity’s validity.
The Agency determined it had 1 Level 1, 14 Level 2, and 3 Level 3 citizen-to-
government Internet applications. 8 SSA did not have a Level 4 citizen-to-government
Internet application.

Authentication is not required for Level 1 Internet applications. We determined that SSA
has implemented a process that was consistent with Federal guidelines and standards
for Level 2 authentication. The Agency stated that it did not have an authentication
protocol for Level 3 applications, but planned to implement a protocol that will be
compliant. According to OMB guidance, 9 to determine the appropriate assurance
levels, agencies must use the following steps.




5
    OMB, M-04-04, supra.
6
    OMB, M-04-04, supra, Attachment A at § 1.1.
7
    OMB, M-04-04, supra, Attachment A at § 2.1.
8
  During the fieldwork phase of our review, we were not provided documentation for four citizen-to-
government Internet applications. They were the Medicare Replacement Card, Replacement 1099,
Public Fraud Reporting Form, and Child Disability Report. After the issuance of the discussion draft
report, an authentication risk assessment (ARA) for the Public Fraud Reporting Form application was
completed and SSA found the authentication level for this application is Level 1. An ARA is an SSA-
defined term that is synonymous with the OMB term for ‘risk assessment.’ In addition, the Social Security
Statement Internet application was removed from the production environment in March 2011 and
authentication reassessments were completed for the Internet Change of Address and Internet Direct
Deposit citizen-to-government applications. Both applications are now OMB Level 2 applications.
9
    OMB, M-04-04, supra, Attachment A at § 2.3.
Page 3 - The Commissioner


1. Conduct a risk assessment of the e-government system.
2. Map 10 identified risks to the required assurance level.
3. Select technology based on the National Institute of Standards and Technology
   (NIST) eAuthentication technical guidance. 11
4. Validate that the implemented system achieved the required assurance level after
   release to production.
5. Periodically reassess the information system to determine technology refresh
   requirements.

To accomplish our objectives, we limited our work to interviewing SSA employees in the
Office of Open Government (OOG); reviewing applicable Federal laws and regulations;
and examining ARAs and Privacy Impact Assessments. Our review was limited to
evaluating the process SSA had in place to implement authentication protocols for
online citizen-to-government Internet applications. We did not test the Agency’s access
controls for citizen-to-government applications. We will test application controls in
future audits. Therefore, we do not comment on the security of these Internet
applications. See Appendix C for additional information regarding our background,
scope, and methodology.

RESULTS OF REVIEW
SSA had taken steps to implement an eAuthentication process that included key
elements needed to create a strong, secure authentication protocol for Level 2 citizen-
to-government Internet applications. For example, SSA had adopted an acceptable
methodology to conduct ARAs and implemented a process that validates the identity of
OMB Level 2 Internet application users. 12 The Agency was developing an
authentication protocol for future Level 3 citizen-to-government Internet applications that
will meet Federal guidelines and standards. However, we identified areas that needed
improvement in the Agency’s eAuthentication process to ensure compliance with
Federal guidelines and standards.

•     Four citizen-to-government Internet applications did not have documentation
      reflecting that ARAs were conducted as required. 13



10
     Mapping is the process of matching potential impact outcomes to appropriate assurance levels.
11
  The selection of technology referred to in OMB M-04-04, Section 2.3, step 3 will be based on NIST
eAuthentication guidance found in Special Publication (SP) 800-63, Version 1.0.2, Electronic
Authentication Guideline, Chapters 5 and 8 (April, 2006). An amendment to this guidance is currently in
Draft. See NIST SP 800-63-1, Electronic Authentication Guideline (December 8, 2008).
12
     OMB, M-04-04, § 2.3 and NIST SP 800-63, Version 1.0.2. See Footnote 11.
13
     OMB, M-04-04, supra, Attachment A at § 2.3.
Page 4 - The Commissioner


•      Four citizen-to-government Internet applications did not have sufficient
       documentation showing that risks were mapped to applicable assurance levels as
       required. 14
•      SSA did not have a NIST-compliant methodology that can provide Level 3
       assurance for citizen-to-government Internet applications as required. 15
•      SSA did not have a process to validate and document that citizen-to-government
       Internet applications achieved their required assurance level after release to
       production as required. 16
•      SSA did not periodically reassess the information system for 11 citizen-to-
       government Internet applications to ensure that identity authentication requirements
       continue to be valid in light of technology changes or changes in Agency business
       processes as required. 17

Four Citizen-To-Government Internet Applications Did Not Have Documentation
Reflecting That Authentication Risk Assessments Were Conducted as Required

We were unable to determine whether an ARA was completed for 4 18 of SSA’s
22 citizen-to-government Internet applications. We reviewed 12 ARAs 19 that addressed
18 of the 22 applications. We requested documentation for the four remaining
applications, but no documentation was available. OOG staff commented that before
January 2009, there was no standard process in place for conducting an ARA, and
some projects went through the systems development lifecycle without an ARA.

OMB requires that agencies conduct a risk assessment of e-government systems to
ensure authentication processes provide the appropriate level of assurance. 20 We
found no documentation existed that verified an ARA was completed for four SSA

14
     Id.
15
  Id. NIST e-authentication guidance is found in Special Publication (SP) 800-63, Version 1.0.2,
Electronic Authentication Guideline, Chapter 8, section 8.2.3 (April 2006). An amendment to this
guidance is in Draft. See NIST SP 800-63-1, Electronic Authentication Guideline (December 8, 2008).
16
     See OMB, M-04-04, supra, Attachment A at § 2.3.
17
     Id.
18
  During the fieldwork phase of our review, an ARA could not be located for four applications. They were
the Medicare Replacement Card, Replacement 1099, Public Fraud Reporting Form, and Child Disability
Report. After the issuance of the discussion draft report, an ARA for the Public Fraud Reporting Form
application was completed and SSA found the authentication level for this application is Level 1.
19
  Some ARAs addressed more than a single citizen-to-government Internet application. For example,
the Internet Social Security Benefit Application ARA addressed the Retirement, Spouse, Disability, and
the Medicare-Only applications.
20
     OMB, M-04-04, supra Attachment A, at § 2.3.
Page 5 - The Commissioner


citizen-to-government Internet applications. Therefore, SSA was not compliant with
Federal requirements 21 for these four Internet applications. Moreover, there was no
assurance that SSA implemented appropriate security measures for user identity
authentication for these four Internet applications. Consequently, these four
applications may not have the appropriate authentication. We recommend SSA perform
risk assessments and retain documentation that demonstrates required ARAs were
conducted for these four citizen-to-government Internet applications.

Four Citizen-to-Government Internet Applications Did Not Have Sufficient
Documentation Showing That Risks Were Mapped to Applicable Assurance
Levels as Required

According to OMB, as part of the ARA process, agencies are required to ‘map’ identified
risks to their appropriate assurance level. 22 This process involves summarizing the
risks inherent in the transaction process assessed in terms of potential harm and/or
impact and likelihood of occurrence. Agencies link the assessment outcomes to the
appropriate assurance levels. Quantified results are mapped in terms of their impact
as, not applicable, low, moderate, or high. This step determines the appropriate
assurance level for the application or transaction. The assurance level assigned
determines the security protocol needed to authenticate users to the application.

During our review of SSA’s 12 ARAs, we found the documentation insufficient to
support that risks were mapped to the appropriate assurance levels for 4 23 citizen-to-
government Internet applications. As a result, we concluded the Agency’s process was
not fully compliant with Federal requirements 24 for these four citizen-to-government
applications. OOG staff commented that before January 2009, mapping was conducted
but was not consistently documented as part of the ARA process for these four citizen-
to-government Internet applications. Consequently, there was no assurance that these
four citizen-to-government Internet applications have appropriate authentication protocol
in place for users. Lack of an appropriate authentication protocol could result in
unauthorized use and possible release of information to the wrong individual. We
recommend SSA map identified risks to applicable assurance levels for these four
citizen-to-government Internet applications and retain documentation that demonstrates
mapping was completed.




21
     Id.
22
     OMB, M-04-04, supra, Attachment A at § 2.3.
23
     The four applications are the applications for which ARAs could not be located.
24
     Id. OMB, M-04-04, supra, Attachment A at § 2.3.
Page 6 - The Commissioner


SSA Did Not Have a NIST-Compliant Authentication Protocol for Level 3 Citizen-
to-Government Internet Applications

During our review, we identified three SSA citizen-to-government Internet applications25
that were assigned a Level 3 assurance rating. We determined that SSA did not have a
NIST-compliant authentication protocol for these Level 3 citizen-to-government Internet
applications. OMB requires that agencies select and implement technology solutions to
determine an individual’s identity based on NIST eAuthentication technical guidance. 26
After an application’s assurance level has been determined, agencies should use NIST
eAuthentication guidance to identify and implement the appropriate technical solution
needed for user remote authentication. 27 An OMB risk assurance Level 3 rating
requires the implementation of a multi-factor remote network authentication protocol. 28
At this level, procedures to determine an individual’s identity require verification of
identifying materials and information 29 as well as the user’s possession of a key or a
one-time password. 30

In anticipation of future Level 3 citizen-to-government Internet applications, the Agency
is seeking a compliant solution. 31 The original release date for SSA’s new
eAuthentication (eA) system was June 2011. The Agency anticipates releasing the
eA system in calendar year 2012. Therefore, we recommend SSA reassess the three
Level 3 applications and select an authentication technology based on the NIST

25
   The three SSA citizen-to-government Internet applications assigned a Level 3 assurance rating are the
Social Security Statement, Change of Address (password), and Direct Deposit applications. After our
fieldwork ended, the Agency removed the Social Security Statement Internet application from the
production environment in March 2011 and authentication reassessments were completed for the Internet
Change of Address and Internet Direct Deposit citizen-to-government applications. Both reassessed
applications are now Level 2 applications.
26
  NIST, SP 800-63, Version 1.0.2, supra, Chapter 8, Section 8.2. The amended NIST guidance is in
Draft. NIST SP 800-63-1, Electronic Authentication Guideline (December 8, 2008). Also see OMB, M-04-
04, supra, Attachment A at § 2.3, Step 3.
27
     OMB, M-04-04, supra, Attachment A at § 2.3, Step 3.
28
  NIST, SP 800-63, Version 1.0.2, supra, Chapter 6, section 6.2. The amended NIST guidance is in
Draft. NIST SP 800-63-1, Electronic Authentication Guideline (December 8, 2008).

29
   Id. According to NIST, SP 800-63, Version 1.0.2, Chapter 5, section 5.2, identifying materials and
information include something you have and something you know that only you possess. For example,
the pin and password assigned to a user during the registration process. This is a single-factor remote
authentication protocol. When you add the requirement of the user having to provide a key or one-time
password, you add an additional authentication level, which then becomes a multi-factor level protocol.
30
     NIST, SP 800-63, Version 1.0.2, supra, Chapter 6, section 6.2.

The amended NIST guidance is currently in Draft. See NIST SP 800-63-1, Electronic Authentication
Guideline (December 8, 2008).
31
  According to OOG personnel, the eA system will meet the multi-factor remote network authentication
requirement for OMB Level 2 and 3 applications.
Page 7 - The Commissioner


eAuthentication technical guidance. Further, we recommend SSA continue to develop
and implement the eA system or an appropriate authentication protocol to help secure
the Agency’s future Level 3 citizen-to-government Internet applications.

SSA Did Not Have a Process to Validate and Document Citizen-to-Government
Internet Applications Achieved Their Required Assurance Level After Release to
Production

We determined that none of the 22 citizen-to-government Internet applications were
validated as required by Federal guidelines. According to OMB, subsequent to
implementation, agencies are required to validate that the information system has
operationally achieved the required assurance level. 32 Because some implementations
create or compound particular risks, agencies should conduct a final, post-
implementation validation to confirm the system achieved the required assurance level
for the citizen-to-government process.33 OOG personnel stated there was no formal
process in place to address this requirement. OOG personnel also commented that it
evaluates the online applications and provides feedback on evaluation plans that
business sponsors create and maintain. In addition, OOG personnel stated that they
monitor application activity for 30 to 60 days after release to production, to ensure the
application is functioning as intended. However, OOG management stated that
because of a lack of resources, stand-alone documentation to support this activity was
not available.

Although SSA monitors an application after implementation, the Agency cannot
guarantee that appropriate security measures were implemented to adequately protect
sensitive electronic transaction data from possible inappropriate disclosure. We
recommend SSA establish a process that validates and documents that all implemented
citizen-to-government Internet applications have operationally achieved their required
assurance level after release to production.




32
     OMB M-04-04, supra, Attachment A, at § 2.3, Step 4.
33
     Id.
Page 8 - The Commissioner


SSA Did Not Periodically Reassess the Information System for 11 Citizen-to-
Government Internet Applications to Ensure that Identity Authentication
Requirements Continue to be Valid in Light of Technology Changes or Changes
in Agency Business Processes

We determined that SSA did not conduct required periodic reassessments for 11 34 of
22 citizen-to-government Internet applications. According to OMB, agencies must
periodically reassess information systems to ensure identity authentication requirements
continue to be valid due to changes in technology and agency business processes.35 36
OOG staff commented that it performs reassessments when there is a change in the
Internet business process, but there has not been enough staff to conduct periodic
assessments as part of cyclical reviews. Since the Agency did not reassess its citizen-
to-government Internet applications consistently and timely, SSA may not have updated
security measures to address unknown security vulnerabilities. We recommend SSA
conduct required periodic reassessments, when applicable, for citizen-to-government
Internet applications to ensure identity authentication requirements continue to be valid
due to changes in technology or Agency business processes.

CONCLUSION AND RECOMMENDATIONS
SSA took steps to implement an eAuthentication process that included key elements
needed to create a strong, secure authentication protocol for Level 2 citizen-to-
government Internet applications. The Agency is developing an authentication protocol
for future Level 3 citizen-to-government Internet applications to meet Federal guidelines
and standards. While certain aspects of SSA’s eAuthentication process are generally
consistent with Federal guidelines, some areas require improvement. Therefore, we
recommend that SSA:

1. Perform risk assessments and retain documentation that demonstrates the
   completion of required ARAs for the four citizen-to-government Internet applications
   identified in this report.




34
  The 11 citizen-to-government applications for which required periodic reassessments were not
conducted are the Social Security Statement, Retirement Estimator, Retirement Application, Spouse
Application, Disability Application, Medicare-Only Application, Appeal Disability Report-3441, Change of
Address (PIN and Password), Change of Address (Knowledge Based Authentication), Direct Deposit (PIN
and Password), and Application Status applications. After the completion of the fieldwork phase of our
review, the Agency removed the Social Security Statement Internet application from the production
environment in March 2011 and authentication reassessments were completed for the Internet Change of
Address and Internet Direct Deposit citizen-to-government applications.
35
     OMB, M-04-04, supra, Attachment A at § 2.3, Step 5.
36
  Id. Technology changes can occur because of new products and innovations. Business processes
can change because of new or obsolete functionality. Changes can also occur within processes or the
processing environment that can have an impact on an application.
Page 9 - The Commissioner


2. Map identified risks to applicable assurance levels for the four citizen-to-government
   Internet applications identified in this report, and retain documentation that
   demonstrates mapping was completed.

3. Reassess the three Level 3 applications identified in this review, and select an
   authentication technology based on the NIST eAuthentication technical guidance.

4. Continue to develop and implement the eA system or an appropriate authentication
   protocol to help secure the Agency’s future Level 3 citizen-to-government Internet
   applications.

5. Establish a process that validates and documents that all implemented citizen-to-
   government Internet applications have operationally achieved their required
   assurance level after release to production.

6. Conduct required periodic reassessments, when applicable, for citizen-to-
   government Internet applications to ensure identity authentication requirements
   continue to be valid in light of changes in technology or Agency business processes.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix D for the Agency’s comments.




                                         Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Social Security Administration Citizen-to-Government Internet
             Applications
APPENDIX C – Background, Scope, and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                           Appendix A

Acronyms
 ARA               Authentication Risk Assessment
 AW                Authentication Workgroup
 eA                Electronic Authentication System
 eAuthentication   Electronic Authentication
 KBA               Knowledge Based Authentication
 NIST              National Institute of Standards and Technology
 OIG               Office of the Inspector General
 OMB               Office of Management and Budget
 OOG               Office of Open Government
 PII               Personally Identifiable Information
 SP                Special Publication
 SSA               Social Security Administration
                                                                                 Appendix B

Social Security Administration Citizen-to-
Government Internet Applications
                                                 Last Date         Office of Management and
                 Application
                                                 Assessed         Budget Authentication Level
    Social Security Statement                   02/11/2005                    Level 3 1
    Spanish Retirement Estimator              New Application                 Level 2
    Retirement Estimator                        10/13/2005                    Level 2
    Retirement Application                      01/16/2008                    Level 2
    Spouse Application                          01/16/2008                    Level 2
    Disability Application                      01/16/2008                    Level 2
    Medicare-only Application                   01/16/2008                    Level 2
    Revised Adult Disability Report–i3368       06/02/2009                    Level 2
    Child Disability Report-3820
    Appeal Disability Report-3441               03/06/2007                    Level 2
    Proof of Income Letter                      06/01/2010                    Level 2
    Check Your Benefits                         07/02/2009                    Level 2
    Change of Address (PIN and Password)        06/09/2011                    Level 2
    Change of Address (Knowledge Based          02/13/2005                    Level 2
    Authentication)
    Direct Deposit (PIN and Password)           06/10/2011                    Level 2
    Medicare Replacement Card
    i1020 (Applicant and 3rd Party)             03/23/2011                    Level 2
    Replacement 1099
    Application Status                          01/10/2007                    Level 2
    Special Notice Option                       11/10/2009                    Level 2
    iAppointment                                06/04/2010                    Level 1
    Public Fraud Reporting Form                 06/15/2011                    Level 1



1
 After our fieldwork ended, SSA removed the Social Security Statement Internet application from the
production environment in March 2011 and completed authentication risk reassessments for the Internet
Change of Address and Internet Direct Deposit citizen-to-government applications. Both reassessed
applications are now Level 2 applications. Furthermore, an ARA for the Public Fraud Reporting Form
application was completed and SSA found the authentication level for this application is Level 1.
                                                                      Appendix C

Background, Scope, and Methodology
Background
In May 2008, the Office of Notice Improvement and Authentication and the
Authentication Workgroup initiated a detailed review of the Authentication Risk
Assessment (ARA) process. Based on this review, the ARA process was changed. For
example, in July 2008, as part of the ARA process, the Office of Notice Improvement
and Authentication began using the Electronic Risk Assessment tool that was created
by the General Services Administration and Carnegie Mellon’s Software Engineering
Institute.

Before July 2008 -- ARA Process

•   A group of key stakeholders met to review the proposed business processes.
•   A qualitative approach to assess risk was used.
•   Each stakeholder assessed risk differently based on varying interpretations of the
    Office of Management and Budget Memorandum M-04-04 guidelines. The risk
    assessment relied on a panel of stakeholders reaching a consensus on the impact
    categories, but the panel often disagreed and could not reach consensus. In these
    cases, the component with the highest assessment determined the overall
    assurance level.

After July 2008 -- ARA Process

•   Risk assessments are conducted using the Electronic Risk Assessment tool.
•   The Authentication Workgroup, in conjunction with the business sponsor, conducts
    the ARA.
•   A quantitative approach versus a qualitative approach is used to assess risk.
•   The definitions of “Low,” “Moderate,” and “High” impact were included to better align
    with the Social Security Administration’s (SSA) business processes.
•   Examples of each risk category were included to provide context for voters.
•   Voting results are averaged so that each stakeholder’s vote is counted and each
    stakeholder has equal input into the outcome of the assessment.




                                           C-1
Scope and Methodology
To accomplish our objectives, we

•   reviewed applicable Federal laws and regulations and applicable SSA policies and
    procedures;
•   interviewed Agency staff from the Office of Open Government;
•   examined Privacy Impact Assessments;1 and
•   examined ARAs conducted by the Office of Open Government.

We did not perform penetration testing of the Agency’s citizen-to-government
applications; therefore, we do not comment on the security of these Websites.

We performed our audit at SSA Headquarters from October 2010 to March 2011. We
conducted this review in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the review to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our review objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our review
objectives.




1
  A Privacy Impact Assessment (PIA) is an analysis of how information is handled: (i) to ensure handling
conforms to applicable legal, regulatory, and policy requirements regarding privacy, (ii) to determine the
risks and effects of collecting, maintaining and disseminating information in identifiable form in an
electronic system, and (iii) to examine and evaluate protections and alternate processes for handling
information to mitigate potential privacy risks. The Office of Management and Budget, M-03-22,
Guidance for Implementing the Privacy Provisions of the E-Government Act of 2002, Attachment A,
Section II.A.f, September 26, 2003.


                                                    C-2
                  Appendix D


Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      August 25, 2011                                                         Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Social Security Administration’s
           eAuthentication Process” (A-14-11-11115)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S eAUTHENTICATION
PROCESS” (A-14-11-11115)

GENERAL COMMENT

We have greatly improved our Authentication Risk Assessment (ARA) process in recent years.
We use the Electronic Risk and Requirements Assessment (e-RA) tool, which is compliant with
Office of Management and Budget guidelines, to identify the risks associated with insufficient
authentication of users and to formally guide us through the assessment process. We also assess
the worst-case scenario and the likelihood that a scenario would happen. Finally, we initiated a
dedicated eAuthentication workgroup to provide an overlying governance structure for the ARA
process.

RESPONSE TO RECOMMENDATIONS

Recommendation 1

Perform risk assessments and retain documentation that demonstrates the completion of required
ARAs for the four citizen-to-government Internet applications identified in this report.

Response

We agree that there are three applications in need of risk assessments. We are planning to
conduct the required ARAs for Medicare Replacement Card, Replacement 1099, and Child
Disability Report. After conducting the ARA on the OIG Public Fraud Reporting Form
application, we determined it does not require authentication because there is no applicable level
of risk. We provided documentation to OIG supporting this determination on July 13, 2011.

Recommendation 2

Map identified risks to applicable assurance levels for the four citizen-to-government Internet
applications identified in this report, and retain documentation that demonstrates mapping was
completed.

Response

We agree. We will continue our practice of mapping an application as part of our assessment.
When we conduct the ARA for Medicare Replacement Card, Replacement 1099, and Child
Disability Report, we will map the identified risks as part of the process.




                                               D-2
Recommendation 3

Reassess the three Level 3 applications identified in this review, and select an authentication
technology based on the National Institute of Standards and Technology (NIST) eAuthentication
technical guidance.

Response

We agree. Using the e-RA tool, we completed our reassessment of the Change of Address and
Direct Deposit applications and determined they are at a Level 2. The third application, Social
Security Statement, is no longer in production. The business process for the upcoming Online
Statement application is complete, and we determined the application is at a Level 2. We
properly documented the authentication assessment for all three applications.

We consider this recommendation closed for tracking purposes.

Recommendation 4

Continue to develop and implement the Citizen Authentication Initiative or an appropriate
authentication protocol to help secure the Agency’s future Level 3 citizen-to-government
Internet applications.

Response

We agree. Currently, we do not have any Level 3 citizen-to-government applications. We
continue to work on this initiative and anticipate providing the appropriate Level 3 technology as
an option for users who want extra security to be available in the future.

Recommendation 5

Establish a process that validates and documents that all implemented citizen-to-government
Internet applications have operationally achieved their required assurance level after release to
production.

Response

We agree. We are developing a new authentication system that will provide support to access
eServices applications at a Level 2 or Level 3, which are consistent with the requirements of
NIST 800-63. In addition, we will monitor the integrity of the new credentials to validate and
document the required assurance levels.




                                                D-3
Recommendation 6

Conduct required periodic reassessments, when applicable, for citizen-to-government Internet
applications to ensure identity authentication requirements continue to be valid in light of
changes in technology or agency business processes.

Response

We agree. We conduct ARA reassessments when we become aware of changes in the business
process of an Internet application. In addition, we created a maintenance chart to perform
periodic reassessments as we move applications to our new electronic Authentication (eA)
system.




                                              D-4
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

    Brian Karpe, Director, Information Technology Audit Division

    Mary Ellen Moyer, Audit Manager

Acknowledgments

In addition to those named above:

    Harold Hunter, Auditor in Charge

For additional copies of this report, please visit our Website http://oig.ssa.gov/ at or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-14-11-11115.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
